       AUDIT OF THE
FEDERAL BUREAU OF PRISONS’
    FURLOUGH PROGRAM

     U.S. Department of Justice
   Office of the Inspector General
            Audit Division

        Audit Report 10-44
         September 2010
           AUDIT OF THE FEDERAL BUREAU OF PRISONS’
                     FURLOUGH PROGRAM

                             EXECUTIVE SUMMARY

      The Federal Bureau of Prisons’ (BOP) furlough program allows “an
authorized absence from an institution by an inmate who is not under escort
of a BOP staff member, U.S. Marshal, or state or federal agents.”

       In general, the BOP grants two types of furloughs – transfer and non-
transfer. Non-transfer furloughs are used whenever an inmate leaves and
returns to the same institution and are generally used to strengthen an
inmate’s family ties or to allow inmates to receive medical treatment or
participate in educational, religious, or work-related activities. Transfer
furloughs are generally used to transfer an inmate to: (1) another BOP
institution; (2) a medical facility for treatment; or (3) a Residential Re-entry
Center, or “halfway house.” Halfway houses are used to prepare inmates for
reentry into society by helping them adjust to life in the community and find
suitable post-release employment.

      For fiscal years (FY) 2007 through 2009, the BOP reported that it
granted 162,655 transfer and non-transfer furloughs to 90,002 inmates.
Each year, the BOP granted furloughs to approximately 13 percent of its
inmate population. The types and numbers of furloughs during this
timeframe are shown in the following exhibit.

COMPARISON OF INMATE POPULATION TO INMATES FURLOUGHED
                                                                1
                          (Fiscal Years 2007 through 2009)
                              FY 2007                FY 2008                 FY 2009
                                   Percent of              Percent of              Percent of
                        Number                  Number                  Number
                                   Population              Population              Population

Inmate Population      264,776                  272,120                 276,292
Furloughed Inmates      33,058      12.5%        35,185     12.9%        34,463     12.5%
   Transfer              30,713     11.6%         32,993    12.1%         32,570    11.8%
   Non-Transfer           2,345      0.9%          2,192     0.8%          1,893     0.7%
Source: OIG analysis of BOP data




       1
         Inmates may be granted multiple furloughs. As a result, the total number of
inmates receiving a furlough during the entire period is less than the sum of the number of
inmates receiving a furlough each year.



                                           - ii -
      The objective of this audit was to determine whether the BOP has
implemented effective internal controls related to its furlough program,
including adequate safeguards to ensure furloughed inmates are sufficiently
monitored, and whether the BOP adequately coordinates with other agencies
regarding inmate furloughs and escapes.

       To accomplish these objectives, we interviewed more than 30 BOP
officials regarding the use of furloughs, including Community Corrections
Managers and individuals in the Correctional Programs Division. We also met
with officials from the United States Marshals Service (USMS) to assess BOP
and USMS coordination efforts related to escaped prisoners. In addition, we
performed audit work at two BOP institutions: (1) Bryan Federal Prison Camp
(Bryan FPC) in Bryan, Texas; and (2) Victorville Federal Correctional Complex
(FCC Victorville) in Victorville, California. 2 We also obtained and analyzed BOP
data related to furloughs granted during the period FY 2007 through FY 2009,
and we reviewed BOP policies related to the furlough program.

Results in Brief

      We concluded that in general the BOP has established and exercised
appropriate controls to ensure that non-transfer furloughs were granted and
processed in accordance with BOP policy. However, we identified weaknesses
with the BOP’s processing and documenting of transfer furloughs.

       We also identified weaknesses with the BOP’s current furlough policy.
For example, the current policy does not require BOP staff to notify victims
and witnesses when an inmate is released on a medical furlough. In
addition, the furlough policy was last updated on February 4, 1998. In
2003, the BOP drafted a new policy that would require victim and witness
notification for medical furloughs and also address other weaknesses with
the policy. However, according to BOP officials, prior to implementing the
new policy the BOP must negotiate this policy change with the union
representing BOP employees. BOP officials stated that because of the
cumbersome negotiation process that is established between the BOP and
the union, it can take an inordinate amount of time for issues to reach the
top of the queue of issues to be negotiated with the union and for those
negotiations to be completed. In this instance, 7 years after the BOP wrote
a new draft policy, this policy has not been implemented and is still awaiting
negotiation by the BOP and its employee union.

        In addition, during our review of the data on furloughed inmates it
initially appeared that as many as 2,601 inmates were improperly released

      2
          See Appendix I for a more detailed description of our audit scope and methodology.


                                           - iii -
on furloughs. For example, according to regulation, furloughs for inmates to
transfer to a halfway house are generally only allowed for inmates with less
than 1 year remaining on their sentence. However, BOP data indicated that
as many as 339 inmates with more than 5 years remaining were granted
furloughs to transfer to a halfway house. BOP officials reviewed all of these
339 inmate furloughs and by utilizing manual techniques determined that
the overwhelming majority of the cases involved data input errors.

      We also found that the BOP could not readily provide data associated
with furlough-related escapes or information it received about crimes
committed by furloughed inmates or inmates who escaped while on
furlough. We also determined that the BOP does not conduct regular
reviews of its furlough data, and thus it is unaware whether inmate records
that appear to show an escape or improper furlough are data entry errors or
improperly released inmates.

      Finally, we found that at the two institutions we reviewed, the BOP had
not maintained adequate records to ensure that transfer furloughs were
processed in accordance with BOP policy. BOP inmate records are largely
manual files and BOP officials we interviewed said that file management is
an organization-wide issue. BOP officials also told us that the organization is
exploring technical solutions to address it.

      In our report, we make seven recommendations to assist the BOP in
improving the management of furloughs. The remaining sections of this
Executive Summary provide a further description of our audit findings, and
our full report contains more detailed information on the results of our
review.

Furlough Administration

       Only BOP Wardens have the authority to approve furloughs at BOP
institutions. There are two types of furloughs – non-transfer furloughs and
transfer furloughs. Non-transfer furloughs are used for inmates who leave
and return to the same institution. They can be granted to an inmate to
visit critically ill family members; attend a funeral; receive medical
treatment; appear in court; or participate in educational, religious, or work-
related functions. Only inmates who meet specific security standards are
eligible for non-transfer furloughs.

      Transfer furloughs are used for three primary purposes – transfers to a
halfway house, transfers from one BOP institution to another non-halfway
house institution, and medical transfers. According to BOP policy, only
inmates who meet specific security standards are eligible for non-transfer


                                     - iv -
furloughs. 3 In addition, the transferring inmates must have less than
10 years remaining on their sentence. 4

       If an inmate escapes while on a furlough, the Warden from the
transferring institution is required to notify the BOP Regional Director
immediately by telephone. The Warden must also send an electronic Report
of Incident form (Form 583) to the Regional BOP Office and to BOP
headquarters. In addition, the Warden is required to notify immediately the
local offices of the Federal Bureau of Investigation (FBI) and USMS, as well
as various court officials and other local law enforcement agencies, as
appropriate.

Revised Furlough Policy

       The BOP staff we interviewed were familiar with and generally followed
the BOP’s current policy covering furloughs, which was last updated on
February 4, 1998. However, we identified some weaknesses with the
existing policy. For example, the current policy does not require BOP staff to
notify victims and witnesses when an inmate is released on a medical
furlough. A BOP official said that the BOP also recognized the need for policy
revisions and had drafted a new policy in 2003 that would replace the
existing guidance and address OIG and BOP-identified weaknesses.

      In addition to requiring staff to notify victims and witnesses when an
inmate is released on a medical furlough, the new policy would limit the
furlough eligibility for inmates found guilty of drug use, drug and drug
paraphernalia possession, or introduction of drugs into BOP institutions. The
new policy would also help to improve the quality of the BOP’s furlough data
by requiring staff to identify on the furlough application the specific type of
furlough approved, such as for crisis, educational, or religious purposes.

     However, BOP officials stated that prior to implementing new policy
the BOP is required to negotiate the changes with the union representing
BOP employees. According to the BOP, all policies, practices, and
procedures that impact conditions of employment must be first negotiated




       3
          Inmates are assigned a custody level based on their criminal history, primary
offense, and behavior while incarcerated. The custody level (community, out, in, and
maximum) dictates the degree of staff supervision required for the inmate.
       4
          According to the BOP, the 10-year limitation applies only to male inmates; there is
no limitation for female inmates.


                                            -v-
with the union, and the BOP furlough policy could impact conditions of
employment. 5

      In 2003, the BOP provided the new furlough policy to the union
representing BOP employees, the American Federation of Government
Employees National Council of Prison Locals, for negotiations. 6 Yet, although
more than 7 years have passed, this new policy has never been negotiated
with the union or implemented. According to a BOP official, representatives
from the BOP and the union meet 1 week out of every month for
negotiations, and there are approximately 50 items awaiting negotiation.
Moreover, issues are negotiated one at a time. As a result, it can take an
inordinate amount of time to implement any changes in BOP policies that
have to be negotiated with the union. The BOP officials told us that they
estimated that the new policy for the furloughs will not be implemented by
the BOP for “a very long time.”

       As a result, even though the BOP recognized the need for changes in
its furlough policy and drafted a revised policy in 2003, it has not been able
to implement the changes. We believe it is essential that the BOP have the
capability to quickly develop, update, and implement policies affecting its
ability to fulfill its mission.

BOP Processing of Non-Transfer and Transfer Furloughs

      To assess the BOP’s use of and control over the furlough program, we
requested and reviewed BOP data for all inmates granted a furlough from
FY 2007 through FY 2009. In general, we found that the BOP has
established adequate controls over non-transfer furloughs. During our
review period the BOP did not experience any escapes resulting from non-
transfer furloughs.

      However, we found weaknesses within the BOP’s administration of
transfer furloughs, which are most often used to move an inmate from a
BOP institution to a halfway house.



       5
         Master Agreement, March 9, 1998. The Master Agreement became effective on
March 9, 1998, and was to remain in effect for 3 years. However, the Agreement may be
extended in 1 year increments thereafter by mutual consent of both the BOP and the union.
While the BOP and the union have not been able to negotiate a successor agreement to the
one that expired in 2001, the BOP and the union have agreed to extend the agreement
since then.
       6
         In 1968, the BOP certified the National Council of Prison Locals as the exclusive
representative of all BOP employees except those in the BOP’s Central Office.


                                           - vi -
Transfer Furloughs to a Halfway House

      To aid in an inmate’s reentry to the community following incarceration,
BOP officials attempt to encourage eligible inmates to transfer to and reside
in a halfway house prior to the end of incarceration.

       According to BOP regulations, an inmate may be designated to a
halfway house or other community confinement during the final months of
the inmate’s sentence for a period not to exceed 12 months. Inmates can
be transferred to a halfway house with more than 12 months remaining on
their sentence when separate statutory authority allows for a longer
assignment, such as when an inmate participates in a residential substance
abuse treatment program.

      One BOP official estimated that inmates transfer to a halfway house
generally within the last 6 months of their sentence and do so in an
unescorted manner by transfer furlough. The BOP reported that, during our
review period, 96 percent of the inmates granted a transfer furlough to a
halfway house had less than 1 year remaining on their sentence. The BOP
data we reviewed indicated that BOP transferred to halfway houses
2,601 inmates who had more than 1 year remaining on their sentence. This
included 339 inmates for whom BOP records showed had more than 5 years
remaining on their sentences.

      As a result of our review, BOP officials conducted a case-by-case
examination of the records for the 339 instances of halfway house transfers
of inmates with more than 5 years remaining on their sentence. According
to the BOP, an overwhelming majority of these individuals were not
transferred to a halfway house, but instead data entry errors had made
other types of transfers appear as transfer furloughs. 7

Transfer Furloughs from BOP Institution to BOP Institution

      According to BOP officials, an inmate may transfer unescorted from
one institution to another non-halfway house BOP institution with up to
10 years remaining on the inmate’s sentence. For this type of unescorted




       7
         The BOP reported that it had transferred one inmate to a halfway house when the
inmate had a pending 18-year consecutive sentence. According to the BOP, it had not been
informed of the pending sentence prior to the inmate’s transfer. BOP officials stated that they
pulled the inmate back from the halfway house placement after 8 days.


                                           - vii -
transfer, one of the most important criteria is the inmate’s custody level. 8
According to the BOP, staff are required to verify that the inmate has an
eligible custody level and the appropriate security designation.

       We requested and reviewed BOP data for all institution-to-institution
transfer furloughs. Of the 5,270 institution—to—institution transfers, we
identified 47 instances in which an inmate transferred unescorted from one
BOP institution to another institution but did not have the required “out” or
“community” custody designation. The SENTRY records for these inmates
reflected a custody level of “in.” 9 According to BOP officials, they reviewed
each of the 47 cases and determined that in 8 instances the records in
SENTRY erroneously displayed the inmate’s custody level as “in.” The BOP
reported that it is working to identify a technical solution to rectify this issue.

       However, the BOP’s review determined that 20 inmates with a custody
level of “in” were in fact transferred without an escort to another institution.
None of these 20 inmates should have been allowed to transfer without an
escort, given the status of their records at the time they were transferred.
The BOP reported that the custody level of 18 of these inmates, as reflected
in SENTRY, had been inaccurate and was updated to “out” or “community”
upon the inmate’s arrival at the new institution. For the remaining two
inmates, the records for these individuals both incorrectly stated that the
inmates were granted furloughs for institution-to-institution transfers.
Instead, one inmate was transferred to a halfway house and the record
should have been updated to change the custody level to “out.” The other
inmate was released from incarceration and should not have been recorded
as a transfer.

     BOP officials said they will identify and implement technical solutions in
SENTRY that will prevent staff from recording entries that violate furlough
program criteria.

Furlough Escapes and Agency Coordination

     To further assess the BOP’s use and monitoring of the furlough
program, we reviewed information related to inmates who escaped while on

       8
         A custody level dictates the degree of staff supervision required for an individual
inmate. The “community” and “out” custody designations are the two lowest custody levels
assigned to an inmate and afford the lowest level of security and staff supervision. “In” and
“maximum” are the two highest custody levels.
       9
          Developed in-house beginning in the mid-1970s, SENTRY is BOP’s database
system in that it is used to collect, maintain, and report all inmate information that is critical
to the safe and orderly operation of all BOP facilities.


                                             - viii -
furlough. BOP officials could not readily provide a list of furloughed inmates
who escaped. BOP officials said that obtaining SENTRY data on inmates who
escaped while in furlough or transfer furlough status would be very difficult
because BOP staff members often make mistakes when entering these
transactions. Moreover, the BOP was not able to readily provide data it
received related to criminal acts committed by inmates who had escaped
while on furlough because the BOP does not track such information along
with its escape data.

      To compile a list of escapes, the BOP was forced to rely on a labor-
intensive process that involved the largely manual review of separate data
sources – SENTRY and Form 583, the electronic Report of Incident form. 10

      We reviewed furloughed inmate escape data from both SENTRY and
the Forms 583 and found that the number of escape incidents recorded in
SENTRY was almost four times higher than the number reported to BOP
headquarters on the Forms 583. We conducted a more in-depth review of
31 escape incidents from the 2 institutions we visited and found that
although the institutions had adequately coordinated with the USMS and FBI
when an inmate had escaped on furlough, in 8 instances a Form 583 was not
sent to BOP headquarters. Without the notification forms, the BOP data on
escaped prisoners is incomplete, hindering the BOP’s ability to identify
trends and take corrective action on procedures in need of improvement.
BOP officials acknowledged that a Form 583 should have been completed for
the eight escape incidents we identified.

BOP Monitoring and Oversight

       We asked BOP officials if they review furlough data and information
about associated escapes to monitor trends that should be addressed or
identify program policies that are in need of revision. In response, one
senior BOP official acknowledged that the circumstances surrounding
escapes should be reviewed. He said this type of analysis is completed at
the regional level and shared with headquarters staff as appropriate.
However, BOP officials acknowledged that they do not regularly review
overall furlough activity data.

       We believe that by not conducting regular reviews of its furlough
activities, the BOP is unaware whether the issues we identified are data
entry weaknesses or improper furloughs and whether it is appropriately
responding to escapes. Although the BOP has established an adequate

       10
          BOP facilities use a Report of Incident (Form 583) to electronically notify the
Regional Office and BOP headquarters of an escape.


                                            - ix -
framework for its furlough program and established internal controls to
guide the furlough program, we believe that BOP officials should monitor the
effectiveness of the BOP’s internal controls by reviewing available data to
ensure the policies are followed and furlough activities are properly
recorded.

File Management

       The BOP maintains confinement-related documents, such as furlough
documents, on each inmate admitted to or discharged from BOP custody.
These documents are primarily paper-based and are generally stored at the
institution where the inmate is housed.

      We reviewed the inmate case files for a judgmental sample of
111 non-transfer and transfer furloughs at Bryan FPC and FCC Victorville to
determine whether BOP staff followed the appropriate procedures and
maintained adequate records to document the furloughs and the actions
taken regarding them. We found that the BOP had not maintained adequate
records at these institutions to ensure that furloughs were properly
documented. We identified 35 instances of missing documents, including
furlough applications, inmate acknowledgements of the conditions of
furlough, and information used to verify the identity of the furloughed
inmate.

       We discussed this issue with BOP officials who said that file
management throughout the BOP is an ongoing concern. Because the
inmate case files are primarily paper-based, when an inmate transfers to a
new facility the records must be shipped to the new institution. A BOP
official said that the BOP executive staff is committed to converting the
BOP’s paper inmate records into electronic format to improve staff access to
inmate records.

      We believe that it is essential that the BOP maintain complete and
accurate records on each inmate, and we recommended that the BOP
continue to explore using electronic methods for sharing and storing
documentation, including documents related to furloughs.

Conclusions and Recommendations

      Overall, we found that the BOP has established and exercised controls
over its use of furloughs. However, we identified several weaknesses with
the BOP’s existing policy for the use of furloughs. Although a new policy has
been drafted that addresses many of these weaknesses, it has been awaiting
negotiation between the BOP and its employee union for 7 years.


                                    -x-
      We also found deficiencies with the BOP’s management of inmate
records and weaknesses within the BOP’s processing of transfer furloughs,
including numerous data entry errors. We believe that the BOP needs
readily accessible, accurate, and consistent data on furloughs and inmate
escapes while on furlough. The BOP relies on largely manual processes to
obtain such data. As a result, the BOP does not regularly review and
analyze data to ensure that furloughs are properly granted and adequately
overseen.

      Our audit work and findings resulted in seven recommendations to the
BOP to improve its use of furloughs, including implementing the new policy
statement for furloughs, developing procedures for routinely monitoring
unescorted absences, and establishing a consistent method for obtaining
accurate statistics on the number of inmates who escape during a furlough.




                                   - xi -
              AUDIT OF THE FEDERAL BUREAU OF PRISONS’
                        FURLOUGH PROGRAM

                               TABLE OF CONTENTS


INTRODUCTION ................................................................................ 2
         BOP Furlough Program Definitions and Statistics ............................ 2
         Inmate Eligibility ....................................................................... 6
         Furlough Administration ............................................................. 8
         Escape Notification................................................................... 10
         OIG Audit Approach ................................................................. 10
         BOP Processing of Non-Transfer and Transfer Furloughs ............... 11
             Non-Transfer Furloughs ...................................................... 11
              Transfer Furloughs – to a Halfway House .............................. 13
              Transfer Furloughs – BOP Institution-to-Institution ................ 16
         BOP Monitoring of Furloughed Inmates ....................................... 18
            Lack of Complete, Current, and Accurate Data ....................... 18
              Revised Furlough Policy ...................................................... 22
              Other Agency Coordination ................................................. 24
              File Management ............................................................... 24
         Conclusion .............................................................................. 26
         Recommendations ................................................................... 27
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 28
STATEMENT ON INTERNAL CONTROLS ............................................ 29
OBJECTIVES, SCOPE, AND METHODOLOGY ..................................... 30
FEDERAL BUREAU OF PRISONS’ RESPONSE .................................... 33
OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY
         OF ACTIONS NECESSARY TO CLOSE THE REPORT ................. 36
This page intentionally left blank.
            AUDIT OF THE FEDERAL BUREAU OF PRISONS’
                      FURLOUGH PROGRAM

                                 INTRODUCTION

        The Federal Bureau of Prisons’ (BOP) stated mission is to confine
offenders in the controlled environments of prisons and community-based
facilities that are safe, humane, cost-efficient, and appropriately secure, and
which provide work and other self-improvement opportunities to assist
offenders in becoming law-abiding citizens. The BOP reported that at the
end of fiscal year (FY) 2009 there were 208,745 inmates in its control. In
FY 2010, the BOP has a budget of approximately $6 billion and
40,000 employees.

      In pursuance of its mission, the BOP uses furloughs, which are defined
as “an authorized absence from an institution by an inmate who is not under
escort of a BOP staff member, U.S. Marshal, or state or federal agents.” A
furlough is a privilege granted to an inmate under certain prescribed
conditions, such as when the inmate only has a certain amount of time
remaining on the inmate’s sentence and when the inmate has been
designated as low risk. 11 Furloughs are not intended as a reward for good
behavior or a means to shorten a criminal sentence. During FY 2007
through FY 2009, the BOP reported that it granted over 160,000 furloughs to
more than 90,000 inmates.

BOP Furlough Program Definitions and Statistics

        According to its current policy, a BOP inmate may be authorized a
furlough to: (1) be present during a crisis in the immediate family, or in
other urgent situations; (2) participate in the development of release plans;
(3) reestablish family or community ties; (4) participate in selected
educational, social, civic, religious, and recreational activities that will
facilitate release transition; (5) appear in court in connection with a civil
action; (6) comply with an official request to appear before a grand jury or
to comply with a request from a legislative body or regulatory or licensing
agency; (7) appear in a criminal court proceeding, but only when the use of
the furlough is requested or recommended by the applicable court or
prosecuting attorney; (8) participate in special training courses or in
institution work assignments including Federal Prison Industries,


       11
            Higher risk inmates, such as those with significant time remaining on their
sentences or those with special monitoring conditions, may also temporarily leave a BOP
facility with an escort. Such absences are not a part of the BOP’s furlough program.


                                          -2-
Incorporated, work assignments of 30 calendar days or less when daily
commuting from the institution is not feasible; and (9) transfer directly to
another institution or to a non-federal facility.

      In general, these furloughs fall into two categories – transfer and non-
transfer. Non-transfer furloughs are used whenever an inmate leaves and
returns to the same institution. An inmate may be granted a non-transfer
furlough to visit critically ill family members; attend funerals; receive
medical treatment; appear in court; and participate in educational, religious,
or work-related functions.

       Non-transfer furloughs are either day or overnight.

       •      A day furlough is defined as a furlough within the commuting
              area of the institution (approximately a 100-mile radius). Day
              furloughs last 16 hours or less and end before midnight.
              According to the BOP, day furloughs are generally used to
              strengthen an inmate’s family ties or to enrich institution
              program experiences.

       •      Overnight furloughs are longer than 16 hours, can end after
              midnight, and may last for up to 30 days. According to the BOP,
              the general length of an overnight furlough is 3 to 7 days and
              the duration may be extended for specific medical, educational,
              or vocational reasons.

     The second type of furlough—transfer furloughs—are used for three
primary purposes:

       •      Transfer to a Residential Re-entry Center – In addition to
              programs offered during incarceration designed to prepare
              inmates for reentry into society, the BOP requires that all eligible
              inmates receive transitional reentry services through placement
              in Residential Re-entry Centers – commonly called halfway
              houses – prior to an inmate’s release from BOP custody. 12 This
              placement is intended to help inmates adjust to life in the
              community and find suitable post-release employment. The
              placements are accomplished through the use of transfer
              furloughs that allow the inmate to travel unescorted to the
              halfway house.


       12
           Halfway houses are community-based correctional facilities for offenders who are
reintegrating into communities and require more supervision than traditional probation or
parole, or who need an alternative to incarceration.


                                           -3-
      •     Institution-to-institution transfer – Certain inmates may receive
            a transfer furlough that allows them to transfer unescorted
            directly from one BOP institution to another non-halfway house
            BOP institution.

      •     Medical transfer – An inmate in need of treatment may be
            authorized a furlough to transfer unescorted to a medical facility.

      According to BOP data, the BOP granted a total of 162,655 non-
transfer and transfer furloughs to approximately 90,000 inmates during
FYs 2007 through 2009. As shown in Exhibit 1-1, more than two thirds were
transfer furloughs. Further, nearly 80 percent of the transfer furloughs were
attributed to transferring inmates to a halfway house. BOP officials said that
they encourage BOP staff to try to send every eligible inmate to a halfway
house to help the inmate transition from BOP custody and reenter the
community. The average time for an inmate to stay at a halfway house is
between 90 and 120 days.




                                     -4-
                                          EXHIBIT 1-1
                                     TYPES OF FURLOUGHS
                                (Fiscal Years 2007 through 2009)
Type of Furlough                                    Description                      Number
Non-Transfer Furloughs
                                    Community service projects (such as a               42,992
   Community Service Project
                                    Habitat for Humanity building project)
                                    Outside training related to institution work         3,736
   Training
                                    assignment, such as hazardous materials
                                    Pre-release visit to family members to               2,751
   Reestablish Family or
                                    enhance family ties in conjunction with
   Community Ties
                                    release needs
                                    Used interchangeably with “re-establish              1,981
   Social
                                    family ties”
                                    Bedside visit to an immediate family member           642
   Crisis                           in the case of imminent death or to attend a
                                    funeral
                                    Trip to complete a task related to release            558
   Release Planning
                                    planning, such as obtaining a driver's license
                                    Educational events, such as taking a                  335
   Educational                      controlled test in conjunction with a college
                                    course
   Comply with Legal Process        Participation in a legal matter                        77
                                    Attendance at a religious program for a                58
   Religious Program
                                    religious holiday
                                    Participation in an individual or team                 14
   Recreational
                                    competition with a community group
Sub-total                                                                              53,144
Transfer Furloughs
                                    Unescorted transfer to a pre-release halfway        85,453
   Transfer to a Halfway House
                                    house
   Institution-to-Institution       Unescorted transfer to camp placement from           5,270
   Transfer                         either a low institution or another camp 13
   Medical
                                    Participation in a scheduled medical                18,224
       Medical
                                    procedure, such as dialysis
                                    Travel to or stay in the hospital without BOP         564
       Medical Emergency            staff or guard service in attendance in an
                                    emergency situation
Sub-total                                                                             109,511
Total all categories                                                                           14
                                                                                     162,655
Source: Federal Bureau of Prisons

       13
           A BOP camp is a minimum security institution, which has dormitory housing and a
low staff-to-inmate ratio. Many camps are located adjacent to larger institutions or on
military bases, and camp inmates can help serve the labor needs of the larger institution or
base.
       14
         The total reflects the number of furlough incidents granted to 90,002 inmates.
Inmates may be granted multiple furloughs.


                                             -5-
     As shown in Exhibit 1-2, the BOP granted non-transfer furloughs to
approximately 1 percent of the inmates in BOP custody from FY 2007
through FY 2009. The BOP granted transfer furloughs to approximately
12 percent of the inmates in BOP custody during the same timeframe.

                              EXHIBIT 1-2
                    COMPARISON OF INMATE POPULATION
                        TO FURLOUGHS GRANTED 15
                           (Fiscal Years 2007 through 2009) 16
                                FY 2007               FY 2008                 FY 2009
                                    Percent of              Percent of              Percent of
                          Number                 Number                  Number
                                    Population              Population              Population

Inmate Population        264,776                 272,120                 276,292
Furloughed Inmates      33,058        12.5%       35,185     12.9%        34,463     12.5%
   Transfer              30,713       11.6%        32,993    12.1%         32,570    11.8%
   Non-Transfer           2,345        0.9%         2,192     0.8%          1,893     0.7%
Source: OIG analysis of BOP data


Inmate Eligibility

      The authority to approve furloughs in BOP institutions is granted to the
Warden or Acting Warden and may not be further delegated. According to
BOP policy, only inmates who meet specific security standards are eligible
for non-transfer furloughs. Specifically, a non-transfer furlough should not
be granted to an inmate if: (1) the inmate was convicted of a serious crime
against a person; (2) the inmate’s presence in the community could attract
undue public attention, create unusual concern, or diminish the seriousness
of the offense; or (3) the inmate has been granted a furlough in the past
90 days.

      As shown in Exhibit 1-3, non-transfer furloughs typically occur during
the inmate’s final 2 years of confinement.




       15
          Inmates may be granted multiple furloughs. As a result, the total number of
inmates receiving a furlough during the entire period is less than the sum of the number of
inmates receiving a furlough each year.
       16
            Throughout this report, differences in the total amounts are due to rounding.


                                             -6-
                                  EXHIBIT 1-3
                             INMATE ELIGIBILITY FOR
                            NON-TRANSFER FURLOUGHS
                                              Then the inmate may only be
     If the inmate has:
                                              considered for:
     More than 2 years remaining
                                              Emergency non-transfer furlough
     until projected release date
     Less than 2 years remaining
                                              Routine day furlough
     until projected release date
     Less than 18 months
                                              Routine overnight furlough within
     remaining until projected
                                              institution’s commuting area
     release date
     Less than 12 months
                                              Routine overnight furlough outside
     remaining until projected
                                              institution’s commuting area
     release date
     Been confined at the initially
     designated institution for less          Emergency non-transfer furlough 17
     than 90 days
     Source: Federal Bureau of Prisons


      For transfer furloughs, an inmate may transfer from one BOP low or
minimum security-level institution directly to another BOP minimum
security-level institution if the inmate is a minimum security-level inmate
and has an “out” or “community” custody designation. 18 Inmates are
assigned a custody level based on their criminal history, primary offense,
and behavior while incarcerated. A custody level (community, out, in, and
maximum) dictates the degree of staff supervision required for an individual
inmate.




       17
         An “emergency” is defined as a verified death or critical illness of an immediate
family member.
       18
           BOP institutions are classified into one of the following five security levels (in
order from lowest to highest) based on the level of security and staff supervision the
institution is able to provide: (1) minimum, (2) low, (3) medium, (4) high, and
(5) administrative. The “out” and “community” custody designations are the two lowest
custody levels assigned to an inmate and afford the lowest level of security and staff
supervision. “In” and “maximum” are the two highest custody levels.


                                              -7-
      BOP officials also explained that an inmate may transfer unescorted
from one BOP institution to another non-halfway house BOP institution with
up to 10 years remaining on the inmate’s sentence. 19

      In addition, an inmate may transfer unescorted to a halfway house
from a BOP institution or from another contract facility. According to the
BOP, halfway house placement is intended to be used for all eligible inmates,
even those incarcerated for violent or other serious offenses, to help inmates
who are close to the end of incarceration gradually adjust to life outside of
the prison system, acclimate to the community, and find employment.

       A BOP official said that inmates may spend up to the last 12 months of
their sentence in a halfway house. However, the official estimated that most
eligible inmates transfer to a halfway house generally within the last
6 months of their sentence.

Furlough Administration

      Non-transfer furloughs can be initiated by inmates when they submit
an application with the dates and the reason for the requested furlough.
Conversely, transfer furloughs are initiated by the BOP. In the case of a
transfer furlough to another institution, once an inmate has been re-
designated to another institution, but before the transfer has taken place,
BOP staff determine whether the inmate is eligible and suitable for a transfer
furlough. Transfer furloughs to a halfway house are initiated as the BOP
prepares for an inmate to leave BOP custody, and the BOP staff evaluate the
inmate for placement in a halfway house.

      Once a non-transfer or transfer furlough request has been initiated,
the BOP staff at the inmate’s institution review the inmate’s case file. If the
BOP determines that the inmate is eligible and suitable for an unescorted
furlough, the furlough application and file are provided to the Associate
Warden and the Warden for review and approval.

      Once approved, BOP staff prepare the necessary paperwork and make
the required notifications. For both non-transfer and transfer furloughs, the
BOP notifies the U.S. Probation Officer in the inmate’s sentencing district, as
well as the U.S. Probation Officer for the district where the furlough will take




       19
           According to the BOP, the 10-year limitation applies only to male inmates; there is
no limitation for female inmates.


                                            -8-
place. 20 The Victim and Witness Protection Act of 1982 also requires the
BOP to notify any victims and witnesses identified as associated with the
inmate’s conviction. 21 For a transfer to a halfway house, the BOP notifies
the halfway house and receives the halfway house’s acceptance to have the
inmate transfer to the new location.

      For non-transfer furloughs, the BOP: (1) notifies the family or persons
being visited to ensure that they are receptive to the visit, and (2) conducts
a background check on the persons being visited. If there are no objections
to the furlough, BOP staff complete the necessary paperwork, including a
furlough form and documentation of the inmate’s travel itinerary.

      Prior to leaving on furlough, inmates acknowledge the receipt of, and
agreement to, the conditions of the furlough or transfer. For example, the
inmates agree to not violate any federal, state, or local laws, and
acknowledge that they are subject to prosecution for escape if they fail to
return to the institution at the designated time.

       According to BOP policy, when an inmate transfers to another
institution or halfway house, the transferring institution is required to
forward the transfer documents to the receiving institution at least
14 working days prior to the transfer. In addition, once the inmate departs
from the institution, the transferring institution is required to make
telephonic notification to the receiving institution and document the following
in the inmate’s file: (1) date and time of contact, (2) name of staff member
contacted, and (3) name of staff member making contact.

      Upon completion of a furlough and return to a BOP institution, inmates
are searched and may be given a breathalyzer test and a urinalysis. 22 For
non-transfer furloughs, institution staff should interview the inmate about
the furlough as soon possible to evaluate the inmate’s activities while on
furlough and the effect that the furlough had on the furtherance of the
inmate’s correctional program goals. Upon arrival of the inmate to the


       20
           The requirement for BOP staff to notify the U.S. Probation Officer for the district in
which the furlough takes place is limited to an inmate’s first furlough to that district. If an
inmate receives additional furloughs to the same location, the BOP is not required to make
additional notifications.
       21
          For medical furloughs, staff at BOP camps are not required to notify the
U.S. Probation Officer, victims, or witnesses. This issue is discussed further below in the
Revised Furlough Policy section below.

       22
              Inmates who go on a non-transfer furlough are required to pre-pay for the
urinalysis.


                                              -9-
transfer destination, the receiving institution or halfway house notifies the
transferring institution that the inmate has arrived as scheduled.

Escape Notification

      If an inmate escapes while on a non-transfer or transfer furlough, the
transferring Warden is required to notify the BOP Regional Director of the
escape immediately by telephone. The Warden confirms this notification by
sending an electronic Report of Incident form (Form 583) to the Regional
Office and BOP headquarters. In addition, the Warden is required to notify
immediately by telephone the offices of the Federal Bureau of Investigation
(FBI) and United States Marshals Service (USMS) that have jurisdiction over
the transferring institution.

       In addition, according to BOP policy, the BOP is required to prepare a
Notice of Escaped Federal Prisoner, which must be sent via facsimile to the
FBI, USMS, and other appropriate local law enforcement agencies. The BOP
also is required to prepare and send via facsimile information about the
escape to the sentencing U.S. District Judge, and any other judge or court
official who may have a special interest in the inmate's location, and include
escape information and a copy of the Notice of Escaped Federal Prisoner.
The BOP also is required to send copies of the information to the sentencing
district's U.S. Attorney, Chief U.S. Probation Officer, and to the Chief U.S.
Probation Office for the district in which the institution is located. In
addition, if a military inmate escapes, the Warden must notify the
Department of the Army no later than the next day. 23 If there is any
indication of a threat to any official, victim, or witness, the BOP is required
to notify these individuals immediately.

OIG Audit Approach

      The objective of this audit was to determine whether the BOP has
implemented effective internal controls related to its furlough program,
including adequate safeguards to ensure furloughed inmates are sufficiently
monitored, and whether the BOP adequately coordinates with other agencies
regarding inmate furloughs and escapes.

       To accomplish these objectives, we interviewed more than 30 BOP
officials regarding the use of furloughs, including headquarters officials in the
Correctional Programs Division; Community Corrections Managers; and
wardens, counselors, and unit personnel. We also interviewed officials with

       23
          Under a Memorandum of Agreement with the Department of the Army, the BOP
takes custody of certain military prisoners that have been discharged from military service.


                                           - 10 -
the USMS to assess BOP and USMS coordination efforts. We conducted
fieldwork at two BOP institutions – Bryan Federal Prison Camp (Bryan FPC)
in Bryan, Texas, and Victorville Federal Correctional Complex
(FCC Victorville) in Victorville, California. We also obtained and analyzed
BOP data related to furloughs, transfer furloughs, and inmate escapes. We
reviewed BOP policies regarding the furlough program and examined
111 non-transfer and transfer furloughs from the two BOP facilities we
visited.

      In the following sections, we provide the findings of our review,
including information on areas needing improvement, such as furlough
processing, the BOP’s monitoring of furloughed inmates through the review
of available data, the existing furlough policy, and records management.
Following those sections, we make seven recommendations to the BOP to
help improve the management of its inmate furlough program.

BOP Processing of Non-Transfer and Transfer Furloughs

      To assess whether the BOP granted furloughs to eligible inmates, we
interviewed BOP officials and reviewed the data from the SENTRY database
system. 24 We also analyzed inmate case files at two BOP institutions –
Bryan FPC and FCC Victorville. In general, we found that the BOP has
established adequate controls over non-transfer furloughs to ensure that the
appropriate inmates are granted the privilege of an unescorted absence from
an institution. However, we found weaknesses within the BOP’s
administration of transfer furloughs.

Non-Transfer Furloughs

      Between FY 2007 and FY 2009, the BOP granted 53,144 non-transfer
furloughs. The BOP reported no inmate escapes resulting from non-transfer
furloughs granted during that time period.

      According to BOP officials, they consider a variety of factors when
determining an inmate’s suitability for a non-transfer furlough, including the
nature of the crime committed, the inmate’s behavior while in custody,
custody level, and prior escape history. One of the most important criteria
for determining an inmate’s eligibility for a non-transfer furlough is the
amount of time remaining on an inmate’s sentence. In general, inmates
with more than 2 years remaining on their sentences are not eligible for a
non-transfer furlough, although there are some limited exceptions to this

       24
          SENTRY is BOP’s primary mission support system in that it is used to collect,
maintain, and report inmate information.


                                           - 11 -
rule that we discuss below. Based on our analysis of BOP data as shown in
Exhibit 1-4, 93 percent of the inmates granted a non-transfer furlough had
less than 2 years remaining on their sentences.

                                EXHIBIT 1-4
                       NON-TRANSFER FURLOUGHS
            LENGTH OF TIME REMAINING ON INMATE’S SENTENCE
                     (Fiscal Years 2007 through 2009) 25

                                                            less than 6 months


                                18,098                      6 months to 1 year
                                (34%)
                                                            1 year to 2 years
                                                2,776
                                                (5%)        2 years to 5 years
              23,049
              (44%)
                               8,015             1,154      more than 5 years
                               (15%)             (2%)
                                                            Time remaining on
                                                52          sentence unavailable
                                              (<1%)

Source: OIG analysis of BOP SENTRY data

       According to BOP policy, a Warden may approve a non-transfer
furlough for inmates who have more than 2 years remaining on their
sentences. In these instances, the purpose of the furlough should be for the
inmate to deal with an emergency situation, such as a family crisis.
However, the Warden has discretion to grant non-transfer furloughs to
inmates with more than 2 years remaining on their sentences on a case-by-
case basis, and a justification must be documented in the inmate’s central
file. Thus, we believe that BOP policy allows the BOP to grant non-transfer
furloughs to inmates with more than 2 years remaining on their sentences if
the purpose of the furlough is reasonable and beneficial.

      We performed further review of the furloughs to inmates with more
than 2 years remaining on their sentence and found that those
3,930 furloughs were granted to 485 inmates. Further, as shown in
Exhibit 1-5, 238 inmates (49 percent) were granted 249 furloughs

       25
          In some instances, the inmate’s release date was unavailable within SENTRY.
According to a BOP official, this information may be missing for a variety of reasons, such as
an inmate escaping from a halfway house. In these cases, the BOP is unable to determine
the inmate’s release date until the inmate is captured or surrendered and then adjudicated.


                                           - 12 -
categorized as crisis, family ties, and social; the BOP uses all of these
categories when granting furloughs for emergency purposes. We also found
that 232 inmates (48 percent) were granted 3,657 furloughs for community
service projects and training.

                              EXHIBIT 1-5
                TYPES OF FURLOUGH – NON-TRANSFER
           MORE THAN 2 YEARS REMAINING ON SENTENCE
                   (Fiscal Years 2007 through 2009)
                                   Furloughs        Inmates
  Furlough Type
                               Number Percent Number Percent
  Community Service Project       2,371     60%     200     41%
  Training                        1,286     33%      32      7%
  Crisis                            131      3%     125     26%
  Re-establish Family Ties           65      2%      63     13%
  Social                             53      1%      50     10%
  Educational                        12    <1%        3     <1%
  Religious Program                   8    <1%        8      2%
  Release Planning                    3    <1%        3     <1%
  Recreational                        1    <1%        1     <1%
  Total                          3,930    100%      485   100%
  Source: OIG analysis of BOP SENTRY data

       The total number of inmates with more than 2 years remaining on
their sentence who were granted a non-transfer furlough is relatively small
and nearly half of these inmates received the furlough for emergency
purposes. Therefore, we believe that the BOP’s use of non-transfer
furloughs for inmates with more than 2 years remaining on their sentences
appears to be limited to few inmates and for reasonable purposes. As a
result of our review of the BOP’s use of non-transfer furloughs, we believe
that the BOP had adequate controls over non-transfer furloughs to ensure
that the appropriate inmates were granted unescorted absences from the
institution.

Transfer Furloughs – to a Halfway House

       As previously discussed, the BOP uses transfer furloughs for three
primary purposes – transfers to a halfway house, transfers from one BOP
institution to another BOP institution, and medical transfers. As shown in
Exhibit 1-6, the overwhelming majority of transfer furloughs are for the
purpose of transferring inmates to a halfway house.




                                      - 13 -
                                  EXHIBIT 1-6
                       TYPES OF TRANSFER FURLOUGHS
                        (Fiscal Years 2007 through 2009)


                                                           Transfer to a
                                                           Halfway House


                                   18,224                  Medical Transfer
                                   (17%)
                                               5,270
                   85,453                      (5%)
                   (78%)                                   Institution-to-
                                                           Institution Transfer

                                              564
                                             (<1%)         Medical Emergency


   Source: OIG analysis of BOP SENTRY data

      According to BOP regulations, inmates may be designated to a halfway
house near the end of the inmate’s sentence, and the time in a halfway
house should not exceed 12 months. Inmates can be transferred to a
halfway house with more than 12 months remaining on their sentence when
separate authority allows for a longer assignment, such as when an inmate
is pregnant at the time of commitment. 26

       BOP officials said that they attempt to encourage every eligible inmate
to transfer to and reside in a halfway house. One BOP official estimated that
inmates transfer to a halfway house generally within the last 6 months of
their sentence and do so in an unescorted manner by transfer furlough.

      As shown in Exhibit 1-7, the BOP reported that 96 percent of the
inmates granted a transfer furlough to a halfway house had less than 1 year
remaining on their sentences. The BOP also reported that it transferred to a
halfway house a total of 2,601 inmates who had more than 1 year remaining
on their sentence.



       26
           The BOP’s Mothers and Infants Nurturing Together (MINT) program is a halfway
house-based residential program intended to help mothers bond with their children and
improve parenting skills for low-risk female inmates. Women are eligible to enter the
program if they are in their last 3 months of pregnancy, have less than 5 years remaining
on their sentence, and are eligible for furlough. The mother generally has 3 months to bond
with the newborn child before returning to an institution to complete her sentence.


                                          - 14 -
                              EXHIBIT 1-7
             TRANSFER FURLOUGHS TO A HALFWAY HOUSE
          LENGTH OF TIME REMAINING ON INMATE’S SENTENCE
                    (Fiscal Years 2007 through 2009)

                                                           less than 6 months

                                            5,219
                                                           6 months to 1 year
                                            (6%)

                                               1,475       1 year to 2 years

             77,518                            (2%)
                                                           2 years to 5 years
             (90%)                                   787
                                                    (1%)   more than 5 years
                                                339
                                               (<1%)       Time remaining on
                                                           sentence unavailable
                                             423
                                            (1%)
Source: OIG analysis of BOP SENTRY data

      When we initially asked BOP officials why such a large number of
inmates with more than 1 year remaining on their sentences would be
transferred to a halfway house, they were unable to provide an explanation.
As a result of our review, BOP officials conducted a case-by-case
examination of the 339 transfers to a halfway house of inmates with more
than 5 years remaining on their sentences. According to the BOP, employee
data entry errors accounted for the majority of the 339 transfers with more
than 5 years remaining on the inmate’s sentence, as shown below.

      •     245 transfers were from one institution to another institution
            that was not a halfway house, and the BOP staff mistakenly
            entered the code reflecting the inmate as transferring to a
            halfway house.

      •     63 transfers were escorted but were incorrectly recorded as
            unescorted transfers.

      •     30 transfers were eligible at the time of the transfer but
            circumstances had since changed to make them ineligible for
            unescorted transfers. For 29 inmates this was because their
            sentences were extended because they escaped or otherwise
            violated the conditions of their halfway house placement. The
            remaining inmate was transferred to a halfway house as part of
            a BOP program for pregnant inmates.


                                          - 15 -
      The BOP reported that it transferred one inmate to a halfway house
when the inmate had a pending 18-year consecutive sentence. According
to the BOP, it had not been informed of the pending sentence prior to the
inmate’s transfer. BOP officials stated that they pulled the inmate back
from the halfway house placement after 8 days.

      The BOP initially declined to conduct a similar review of the cases
involving more than 2,200 transfers to a halfway house of inmates with 1 to
5 years remaining on their sentences. However, at the audit close-out
meeting, BOP officials reported that they had reviewed these records and
found data entry problems similar to those identified in the review of the
339 transfers with more than 5 years remaining on the inmate’s sentence.

       We acknowledge that the number of data entry errors is small in
relation to the overall number of transfer furloughs. However, when we
discussed this issue with senior BOP officials, they said that they would be
concerned if inmates with more than 5 years remaining on their sentences
had been transferred to a halfway house. By not conducting regular reviews
of its data, the BOP is unaware whether these anomalies that exist in its
data system simply reflect data entry errors or involve improper transfers of
inmates. As a result, the BOP is unable to ensure that its employees are
correctly processing the transfers, the appropriate inmates are granted
unescorted absences, and that BOP employees are properly trained in the
use of SENTRY codes to record inmate furloughs.

      We therefore recommend that the BOP review transfer and non-
transfer furlough data on a routine basis. In addition, we recommend that
the BOP assess its employee training programs and provide refresher
SENTRY training for its employees, as needed.

Transfer Furloughs – BOP Institution-to-Institution

       BOP officials said that when they are determining an inmate’s
suitability for an unescorted transfer from one BOP institution to another
BOP institution, one of the most important criteria is the inmate’s custody
level, which dictates the degree of staff supervision required for an individual
inmate. Specifically, to be eligible for a transfer furlough, an inmate’s
custody level should be designated as either “out” or “community” and the
inmate’s security-level designation must be minimum security. Further,
transfer furloughs can be used only for inmates transferring directly from a
low or minimum security-level institution to another minimum security-level
institution.




                                     - 16 -
        We reviewed the data provided by the BOP and identified 47 instances
in which an inmate transferred unescorted from one BOP institution to
another institution but who had a custody level of “in.” BOP officials
reviewed each of the 47 cases and determined that none of the cases were
situations in which an ineligible inmate had been granted a furlough. Of the
47 cases, 3 were listed twice on the report because these inmates also had
escape transactions, causing there to be 2 entries on our list for these 3
inmates – 1 for the furlough and another for the escape. After removing 1
of the entries for all 3 such instances, 44 cases remained. Of those 44
cases, 16 of the inmates correctly had “out” custody upon departing the
facility on furlough and the data in SENTRY had indicated an “out” status at
the time of the transfer. For these inmates, the BOP said that the custody
was subsequently changed to “in” at some point after the furlough and was
reflected with that updated custody level on the report we received.

       As a result of our inquiry, the BOP identified 20 inmates for which the
SENTRY records identified a custody level of “in” at the time of the furlough
and who were granted transfer furloughs to travel to another facility without
an escort. The BOP reported that the custody level of 18 of these inmates,
as reflected in SENTRY, had been inaccurate and was corrected to “out” or
“community” upon the inmate’s arrival at the new institution.

      However, the two remaining inmates carried high and medium
security-level inmate designations. The records for these inmates both
incorrectly identified that the inmates were granted furloughs for institution-
to-institution transfers. Instead, one inmate was transferred to a halfway
house and the record should have been updated to change the custody level
to “out.” The other inmate was released from incarceration and should not
have been recorded as a transfer.

      At the time that these inmates were given the designation of having
been transferred to another institution, their records should have been
updated to change their custody level to “out.”

      For the remaining 8 of the 44 cases, the BOP’s review revealed that
the incorrect custody levels resulted from the way in which custody level is
captured in SENTRY. As a result, the inmates’ custody levels were
erroneously reflected as “in.” The BOP reported that it has alerted its
computer services department and is working to identify a solution.

      As previously noted, prior to providing furloughs of all types, BOP staff
are required to verify that the inmate has the correct custody level and
security designation. Although the BOP ultimately corrected the inmates’
records, none of the 44 inmates whose SENTRY records indicated an


                                    - 17 -
ineligible custody level or security designation should have been allowed to
leave their institution without an escort. Instead, in each instance the BOP
staff should have reviewed the inmate’s custody level in SENTRY, noted the
ineligible custody level or security designation, and sought to resolve it
before entering in SENTRY that the inmate was being furloughed and
allowing the inmate to leave the institution. Although we identified only
44 inmate transfers with ineligible custody levels out of the 5,270 transfers
from one BOP institution to another non-halfway BOP institution, it is
nevertheless of concern that these inmates were furloughed when the data
system indicated they should not be. This suggests that the BOP staff are
not conducting appropriate checks of an inmate’s custody level before
allowing the inmate to leave the institution on a furlough.

       BOP officials agreed and said that they will work with the computer
services personnel to identify technical solutions that would help BOP staff to
verify an inmate has the correct custody level by precluding the BOP staff
from entering in SENTRY the transfer from one BOP institution to another
institution for an inmate with “in” custody.

BOP Monitoring of Furloughed Inmates

       According to BOP officials, they do not actively monitor inmates who
are on non-transfer or transfer furloughs. Rather, the BOP relies on its
framework of policies and procedures to ensure that inmates are properly
vetted prior to being granted a furlough, inmates understand the
consequences of not following the conditions of furlough, and inmates are
thoroughly searched, questioned, and subjected to a urinalysis following the
furlough. In the event an inmate escapes while on furlough by failing to go
to the designated institution at the designated time, the BOP relies on its
ability to effectively coordinate with other agency personnel, including the
courts and the USMS to search for and apprehend the inmate. We assessed
the effectiveness of the BOP’s approach and concluded that its coordination
with other agencies was adequate. However, we found weaknesses with the
BOP’s data on furloughed and escaped inmates, policy, and records
management, as described in the following sections.

Lack of Complete, Current, and Accurate Data

       We requested a data file consisting of all inmates granted either a
transfer or non-transfer furlough from FY 2007 through FY 2009. In
addition, we requested a listing of all inmates who escaped while on a non-
transfer or transfer furlough. To develop our request, we met with BOP
officials on numerous occasions and discussed how the data would be used
and reported. Although BOP officials said that the BOP had not reviewed


                                    - 18 -
furlough data “in a very long time,” they were able to provide a data file of
inmates granted transfer or non-transfer furloughs. However, the BOP could
not readily provide a list of inmates who escaped while on furlough. To
compile the data for us, the BOP was forced to rely on a labor-intensive
process that involved the largely manual review of separate data sources.

       According to the officials, the BOP uses SENTRY as its primary
database for managing administrative data and information related to
inmates, including admission, release, furlough, and transfer. Each time an
inmate is admitted or released from a BOP institution, a new transaction
record is created within the SENTRY database. These records are in
chronological order. For example, when an inmate goes on a furlough, the
institution enters a transaction that releases the inmate on the furlough.
When the inmate returns from the furlough, the institution enters a
corresponding transaction that re-designates the inmate to the facility.

      BOP officials said that obtaining SENTRY data on inmates who escaped
while in furlough or transfer furlough status would be very difficult because
BOP staff members often make mistakes when entering these transactions.
Because SENTRY does not permit a transaction to be deleted, BOP staff must
make additional transactions to correct the error. As a result, BOP officials
said that they would need to review each of the cases identified in SENTRY
as a possible escape to determine whether the escape transactions were
accurate.

       BOP officials also said that they would need to review another source
to determine the inmates who may have escaped or attempted to escape
while on furlough – the Form 583 – Reports of Incident. As previously
discussed, when an inmate escapes or attempts to escape, the responsible
BOP institution is required to report the incident to BOP headquarters
telephonically, as well as by using a Form 583. When BOP headquarters
staff receives the Form 583, the information is manually entered into a
separate database. 27 A BOP official said that the institutions use the
Form 583 to immediately notify BOP headquarters of a potential inmate
escape and that the Form 583 information was the best source of inmate
escape information.

      As shown in Exhibit 1-8, the BOP initially reported to us that
104 furloughed inmate escape incidents occurred during our review period.
These escape incidents had been reported by institutions to BOP

      27
          The BOP automated this process in August 2009. Because the furloughs we
reviewed took place between FY 2007 and FY 2009, our review generally involved non-
automated Forms 583.



                                        - 19 -
headquarters on the Form 583. To determine whether institution staff
notified BOP headquarters, via Form 583, of all potential inmate escapes and
entered the information into SENTRY, we compared the 104 escape incidents
to escape incident data from SENTRY. Based on our analysis, we found that
the number of escape incidents recorded in SENTRY was almost four times
higher than those initially reported by the BOP on a Form 583.

                            EXHIBIT 1-8
        ANALYSIS OF FURLOUGHED INMATE ESCAPE INCIDENTS
                 (Fiscal Years 2007 through 2009)
                Furlough Type             Form 583 SENTRY
      Non-Transfer Furlough Escape Incidents                       0              0
      Transfer Furlough Escape Incidents
            Transfer to a halfway house                          93            350
            Institution-to-Institution Transfer                  11             32
                   Medical                                        0              5
                   Medical Emergency                              0              1
      Total                                                     104            388
      Source: OIG analysis of Federal Bureau of Prisons data


      To determine potential causes for the differences in the number of
Form 583 reports filed and the number of SENTRY escape records, we
reviewed furloughed inmate escape incidents for two BOP institutions –
Bryan FPC and FCC Victorville. 28 We reviewed these institutions’ files to
determine whether a Form 583 was completed and received by BOP
headquarters, as required. In addition, we verified that a corresponding
entry was made in SENTRY. We reviewed a total of 31 escape incidents.

       In each of the escape incidents we reviewed, we determined that the
staff at the institution had correctly entered the escape transaction into
SENTRY and that the institution had adequately coordinated with the USMS
and FBI when an inmate had escaped on furlough. However, we identified
eight instances (26 percent of the 31 reviewed) in which the Form 583 had
not been completed and submitted to BOP headquarters. We also identified
one escape incident for which a Form 583 had been completed by
FCC Victorville staff. However, when we reviewed SENTRY, the inmate’s
case file, and other institution documents, we did not find any indication in
these documents that the inmate had escaped from BOP custody.



      28
           We selected a judgmental sample from these two institutions based on various
criteria. For more detailed information on our sampling methodology, see Appendix I.


                                          - 20 -
       We discussed these discrepancies with BOP officials, who
acknowledged that Form 583 reports should have been completed but were
not for the eight escape incidents identified above. One senior BOP official
said that he believed that BOP institution staff may overlook completing the
written report (Form 583) once the escape incident has been verbally
reported to headquarters. In addition, the senior official said that the
institution staff may not complete the written report because escapees are
frequently apprehended quickly – often the same day. However, in the
eight escape incidents we reviewed, just four inmates were apprehended in
less than 1 week, and four inmates remained as fugitives from between
3 and 11 months. BOP officials were unable to provide an explanation for
the one inmate who was erroneously reported to us as an escape.

      We believe that the BOP should regularly review data on furloughed
inmates who escape. Incomplete or untimely information may hinder the
BOP in identifying and addressing weaknesses in its policies and procedures.
For example, we identified one instance in which an inmate was released
from FCC Victorville to transfer to a halfway house on the Friday before a
3-day holiday weekend. The inmate was to report at the halfway house that
Friday and failed to do so. Documentation in the inmate’s case file indicated
that the BOP did not issue the formal escape notification to other law
enforcement agencies until the following Tuesday. Further, the formal
escape notification indicates that this inmate was considered violent and
dangerous. This inmate was re-apprehended more than 7 months later in
January 2010. Although a Form 583 was required to be completed and
submitted, FCC Victorville was unable to provide a copy or otherwise
demonstrate that it had prepared one. In addition, BOP headquarters did
not include this escape on its Form 583 list.

       One senior BOP official acknowledged that these escape incidents
should be reported on the Form 583 and that the circumstances surrounding
these escapes should be reviewed. However, he said that this type of
analysis is completed at the regional level, and if a trend or pattern is
identified, the information is then shared with headquarters staff.

      We agree that the BOP should review the circumstances surrounding
these escapes. The Form 583 process can provide the BOP with more
accurate and timely information on inmates who escape while on transfer or
non-transfer furlough.

      However, BOP officials said that they currently do not have a method
to ensure that staff complete and submit a Form 583 each time they record
an inmate as “escaped” in SENTRY. BOP officials said they would explore
technical solutions to address this issue.


                                   - 21 -
      Moreover, BOP officials told us that they were not able to readily
provide data related to criminal acts committed by furloughed inmates or
inmates who escaped while on furlough. Inmate case files can contain this
type of information, but it is likely to be incomplete. BOP officials said that
the BOP staff would include this documentation in the case file only if the
inmate was caught while committing the crime and if the paperwork was
provided to the BOP institution. Further, even when the BOP does receive
such information, it does not consistently enter it into SENTRY so that it can
be tracked along with escape data. Because the information is not
consistently entered into SENTRY, it is not available to all relevant
personnel. We believe that when the BOP receives information on crimes
committed by furloughed inmates, it should track this information in
SENTRY.

Revised Furlough Policy

      We reviewed the BOP’s current furlough policy, which was last updated
on February 4, 1998. The BOP staff we interviewed were familiar with and
generally followed the policy. However, we identified some weaknesses with
the existing policy. For example, BOP staff are required to notify victims and
witnesses whenever an inmate is released from a BOP institution, including
furloughs, transfers to a community corrections center, and escapes.
However, the policy does not require BOP staff to notify victims and
witnesses when an inmate is released on a medical furlough.

     A BOP official said that the BOP had drafted a new policy document in
2003 that, when approved, will replace the existing policy and address
several identified weaknesses, including the example above. In addition, the
new draft policy:

      •   encourages institutions to use transfer furloughs to relocate
          appropriate inmates to a minimum security institution unless a
          more cost effective means of transportation is available;

      •   limits the furlough eligibility for inmates found guilty of drug use,
          drug and drug paraphernalia possession, or introduction of drugs
          into BOP institutions;

      •   requires staff to conduct post-furlough interviews ordinarily no later
          than the next business day after the inmates return from a social
          furlough;




                                      - 22 -
       •    requires staff to identify on the Furlough Application the specific
            type of furlough approved, such as for crisis, educational, or
            religious purposes; and

       •    adds to the Conditions of Furlough, which is signed by the inmate,
            that a urinalysis test will be conducted upon completion of each
            social furlough.

      A BOP official said that prior to implementing new policies, the BOP is
required to negotiate with the union representing BOP employees because
the changes may impact their conditions of employment. 29 As a result, in
2003 the BOP provided the new furlough policy document to the American
Federation of Government Employees (AFGE) National Council of Prison
Locals, which represents BOP employees, for review and negotiation. 30
However, after more than 7 years, the policy document has not been the
subject of any negotiations. Therefore, the new furlough policy has not yet
been implemented, and the BOP continues to operate under the 1998 policy
that needs improvement.

       According to a BOP official, representatives from the BOP and AFGE
meet 1 week out of every month to discuss and negotiate and there are
approximately 50 policies awaiting negotiation. Moreover, issues are
negotiated one at time. The BOP and the union attempt to schedule the
policies for review based on importance. If a high-priority policy is
submitted for review, then the BOP and the union will rearrange the order of
the reviews and negotiate the higher priority policies first.

       As a result, it can take an inordinate amount of time to implement new
policies that have to be negotiated with the union. These officials estimated
that the new policy for the furloughs will not be reviewed by the union and
implemented by the BOP for “a very long time.”

        Consequently, even though the BOP recognized the need for changes
in its furlough policy and drafted a revised policy in 2003, it has not been
able to implement the changes. We believe it is essential that the BOP have

       29
          Master Agreement, March 9, 1998. The Master Agreement that became effective
on March 9, 1998, was to remain in effect for 3 years, and could be extended in 1 year
increments thereafter by mutual consent of both the BOP and its employee union. The BOP
and the union have not reached agreement on a successor Master Agreement to the one
that expired in 2001. The BOP and the union have agreed to extend the agreement since
then.
       30
          In 1968, the BOP certified the AFGE National Council of Prison Locals as the
exclusive representative of all BOP employees with the exception of the employees of the
Central Office.


                                          - 23 -
the capability to quickly develop, update, and implement policies affecting its
ability to fulfill its mission.

Other Agency Coordination

       To assess the BOP’s efforts to coordinate with other agencies, we met
with USMS officials and reviewed a total of 22 escapes associated with our
judgmental sample of 111 non-transfer and transfer furloughs at 2 BOP
institutions – Bryan FPC and FCC Victorville. We reviewed the inmate case
files to determine whether BOP staff notified the appropriate entities
following an inmate escape while on furlough. Our review found that the
BOP notified the appropriate entities when an inmate escaped while on
furlough. In addition, the USMS officials said that they believed that the
existing BOP notification procedures were sufficient.

File Management

        The BOP maintains confinement-related documents, such as furlough
documents, on each inmate admitted to or discharged from BOP custody.
These documents are primarily paper-based and generally stored at the
institution where the inmate is housed. When an inmate transfers to a new
facility, the records must be shipped to the new institution.

      To determine whether BOP staff followed the appropriate procedures
and maintained adequate records to document their actions, we reviewed
the inmate case files for the 111 furloughs in our sample. Our review found
that the BOP had not maintained adequate records at these two institutions
to ensure that furloughs were properly documented. As shown in
Exhibit 1-9, we identified 35 missing documents from the 111 furloughs
reviewed.




                                    - 24 -
                             EXHIBIT 1-9
                     ANALYSIS OF DOCUMENTATION
                 MAINTAINED IN BOP INMATE CASE FILES
                                                  Institution
                                                            FCC
                                            Bryan FPC Victorville

Non-Transfer Furloughs – Incidents Reviewed                    10              4
  Missing Documentation
    Furlough Application and Record (BP-291)                    0              1
    Conditions of Furlough                                      0              1

Transfer Furloughs – Incidents Reviewed                        50             47
  Missing Documentation
      Furlough Application and Record (BP-291)                  7              3
      Conditions of Furlough                                    7              2
      Unescorted Commitment and Transfer Card                   8              6
Source: OIG analysis of BOP inmate case files


      As shown in the previous exhibit, the documentation related to non-
transfer furloughs at the two institutions we reviewed was generally
adequate and complete. However, the files related to transfer furloughs
were less complete and as a result we were unable to determine whether
some of these transfer furloughs were processed according to BOP policy
and subject to the controls over the furlough program.

       BOP officials attributed the lack of documentation to two main causes.
First, the Warden of Bryan FPC said that the staff were not filing documents
in a timely, accurate, and complete manner. We noted that when the
institution used a documentation checklist, the inmate case files were
generally more complete. The Warden acknowledged that using a
documentation checklist in the inmate’s case file helped to ensure that all of
the appropriate documents were contained within the file.

      Second, officials at both facilities said that frequently the BOP does not
receive all of the required documentation from the staff in the Community
Corrections Management field offices. 31 In addition, because the BOP

       31
           The BOP's community-based programs are administered by staff of the
Correctional Programs Division in the Central Office in Washington, D.C., community
corrections regional management teams in each of the BOP's 6 regional offices, and the
employees of 28 Community Corrections Management field offices serving specific judicial
districts. According to BOP policy, halfway house-generated files resulting from institution
transfers should be forwarded to the parent institution within 21 working days following the
inmate’s release.


                                           - 25 -
requires that inmate case files be archived, the documentation received from
the Community Corrections Management staff often is not received in
sufficient time to be included in the inmate’s case file before it is archived.

       The official responsible for inmate case file management at
FCC Victorville said that the institution had recently begun using the BOP’s
Inmate Skills Development System to share and store electronic versions of
the documents. This electronic system has allowed FCC Victorville staff to
both provide and receive documents electronically rather than having to wait
for items sent through the mail.

       We discussed this issue with BOP officials who said that case file
management throughout the BOP is an ongoing concern. To improve the
storage of and the BOP staffs’ access to inmate records, a BOP official said
that the BOP executive staff is committed to converting the BOP’s paper
inmate records into an electronic format and that this conversion is a top
priority for the BOP. We believe that it is essential that the BOP maintain
complete and accurate records on each inmate. We recommend that the
BOP continue to explore electronic methods for sharing and storing
documentation, including documents related to the unescorted absences.

Conclusion

      Overall we found that the BOP has developed policies and procedures
to implement the furlough program. However, we also identified several
weaknesses with the BOP’s existing policy for the use of furloughs. Although
a new policy has been drafted that addresses many of these weaknesses, it
has been awaiting negotiation by the American Federation of Government
Employees union for more than 7 years.

      In addition, we found that the BOP has implemented and exercised
adequate controls over non-transfer furloughs. However, we identified
weaknesses within the BOP’s administration of transfer furloughs, including
numerous data entry errors. Moreover, the BOP was not able to readily
provide data it received related to criminal acts committed by furloughed
inmates or inmates who escaped while on furlough because the BOP does
not consistently track such information along with its escape data.

      We found that the BOP relies on largely manual processes to obtain
information on furloughs and inmate escapes while on furlough. However,
to adequately identify and address weaknesses in its policies and
procedures, we believe that the BOP needs readily accessible, accurate, and
consistent data on furloughs and inmate escapes while on furlough.



                                    - 26 -
      Finally, we also found that at the two institutions we reviewed, the
BOP had not maintained adequate records to ensure that transfer furloughs
were processed in accordance with BOP policy. BOP officials commented
that case file management throughout the BOP is an ongoing concern.
Although an inmate’s confinement-related documents are primarily
paper-based, a BOP official said that the BOP executive staff is committed to
converting the BOP’s paper inmate records into an electronic format.

Recommendations

     We recommend the BOP:

     1.    Review and track in SENTRY furlough and escape activity data on
           a routine basis, including data on criminal acts committed by
           inmates on furlough. These reviews should include identifying
           anomalous information, identifying any trends in furloughs and
           escapes, and rectifying systemic data entry weaknesses.

     2.    Explore technological solutions to rectify the data issues we
           identified, such as missing escape notifications, transfer
           furloughs appearing to be inconsistent with BOP policy for
           institution-to-institution moves of inmates with “in” custody, and
           erroneous coding of transfer furloughs.

     3.    Assess its employee training programs for SENTRY data entry
           and provide refresher training for its employees, as needed.

     4.    Develop a more effective mechanism for coordinating with the
           union on required policy changes, including procedures for
           critical and routine matters.

     5.    Secure the implementation of the revised furlough policy, which
           has been awaiting negotiation since 2003.

     6.    Continue to explore alternative methods for sharing and storing
           documentation related to furloughs, such as the development of
           an electronic inmate case file system.

     7.    Consider the required use of document checklists to ensure that
           inmate case files contain all required documentation.




                                   - 27 -
                  STATEMENT ON COMPLIANCE
                 WITH LAWS AND REGULATIONS

      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objective, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that the
BOP’s management complied with federal laws and regulations, for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. BOP’s management is responsible for ensuring compliance with
federal laws and regulations applicable to the BOP. In planning our audit,
we identified the following laws and regulations that concerned the
operations of the BOP and that were significant within the context of the
audit objective:

     •     18 U.S.C. §3622 (1984).

     •     18 U.S.C. §4082 (1986).

     •     28 C.F.R. §0.96(d) (1999).

     •     28 C.F.R. §570.30-37 (1994).

       Our audit included examining, on a test basis, the BOP’s compliance
with the aforementioned laws and regulations that could have a material
effect on the BOP’s operations. We interviewed BOP personnel, analyzed
inmate furloughs and escapes, assessed internal control procedures, and
examined the BOP’s practices in relation to its furlough program. Our
findings and recommendations are discussed in the body of this report.
Nothing came to our attention that caused us to believe that the BOP was
not in compliance with the aforementioned laws and regulations.




                                   - 28 -
              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards we tested as
appropriate, internal controls significant within the context of our audit
objective. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the BOP’s internal controls was
not made for the purpose of providing assurance on its internal control
structure as a whole. The BOP’s management is responsible for the
establishment and maintenance of internal controls.

       Our audit objective was to determine whether the BOP has
implemented effective internal controls related to its furlough program,
including adequate safeguards to ensure furloughed inmates are sufficiently
monitored, and the BOP adequately coordinates with other agencies
regarding inmate furloughs and escapes. Overall we found that the BOP has
developed policies and procedures to successfully manage the furlough
program. However, we identified deficiencies in the BOP’s internal controls
that are relevant within the context of the audit objective. Specifically, the
BOP was not adequately reviewing data related to furlough and escape
activity. This matter is discussed in detail in the body of this report.

      Because we are not expressing an opinion on the BOP’s internal
control structure as a whole, this statement is intended solely for the
information and use of the auditee. This restriction is not intended to limit
the distribution of this report, which is a matter of public record.




                                    - 29 -
                                                                APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

Audit Objective

      The objective of this audit was to determine whether the BOP has
implemented effective internal controls related to its furlough program,
including adequate safeguards to ensure furloughed inmates are sufficiently
monitored, and the BOP adequately coordinates with other agencies
regarding inmate furloughs and escapes.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective. In general, our audit covered but was not limited to the period of
(FY) 2007 through 2009.

       To accomplish our objective, we interviewed more than 30 BOP
officials regarding the use of furloughs in the BOP, including headquarters
officials in the Correctional Programs Division; Community Corrections
Managers; and wardens, counselors, and unit personnel. We also
interviewed officials with the USMS to assess BOP and USMS coordination
efforts. We conducted fieldwork at two BOP institutions – Bryan Federal
Prison Camp in Bryan, Texas, and Victorville Federal Correctional Complex in
Victorville, California. To further accomplish our objective, we reviewed data
obtained from the BOP relating to non-transfer and transfer furloughs and
inmate escapes.

       To evaluate the BOP’s compliance with laws, regulations, and internal
policies, we reviewed inmate case files and other records and reports, as
applicable, related to a judgmentally selected sample of all non-transfer and
transfer furloughs and inmate escapes at the two selected BOP institutions.
We designed our testing methodology to provide us with a broad exposure
to the BOP’s furlough program. Our sample selection methodology was not
designed with the intent of projecting our results to the population of inmate
furloughs and escapes.




                                    - 30 -
BOP Inmate Furlough and Escape Data

       We requested that the BOP provide us with data for FYs 2007 through
2009 regarding the number of: (1) non-transfer and transfer furloughs
granted by the BOP, and (2) inmate escapes while on non-transfer or
transfer furlough. As noted in the body of this report, the BOP experienced
significant problems with providing us complete and accurate data. After
several attempts, the BOP ultimately was able to provide data on inmates
granted non-transfer and transfer furloughs. However, to provide data on
inmates that escaped while on non-transfer or transfer furlough, the BOP
performed a near manual review of separate data sources.

      As a result of these inconsistencies, we performed limited testing of
the data within SENTRY to verify that the data provided by the BOP was
accurate and complete. Despite the data limitations within the sample data
provided by the BOP, when these data are viewed in context with other
available evidence, we believe the opinions, conclusions, and
recommendations in this report are valid.

Inmate Eligibility and the BOP’s Controls

       To determine whether the BOP granted furloughs to eligible inmates
and to assess the BOP’s controls over the furlough program, we reviewed
data provided by the BOP on December 3, 2009. We judgmentally selected
111 furlough and escape incidents from 106 inmate case files containing
furlough documentation or information about an escape that occurred during
a furlough. These 111 furlough and escape incidents were selected from the
following populations:

         •   The 2,735 and 108 non-transfer furloughs from the Bryan FPC
             and FCC Victorville, respectively;

         •   The 1,437 and 1,777 transfer furloughs from the Bryan FPC and
             FCC Victorville, respectively; and

         •   The 16 and 221 furloughed inmate escapes from the Bryan FPC
             and FCC Victorville, respectively.

       Our testing entailed reviewing all furlough and escape-related
documents from the BOP pertaining to each incident selected within our
sample, including furlough applications and approvals, other agency
notifications, conditions of furlough, and Forms 583. At each institution, we
compared the associated SENTRY record and the case-related documents
within each inmate’s central file to determine whether the BOP followed


                                    - 31 -
policies and procedures when processing inmate furloughs and escapes and
maintained adequate supporting documentation.




                                  - 32 -
                                                                               APPENDIX II

    FEDERAL BUREAU OF PRISONS' RESPONSE




                                                  U.S. Department of Justice

                                                  Federal Bureau of Pri sons




OJlkt' I)f rJw Dirt'rlor                          \I 'm III/won. DC 205301


                                                  August 20, 2010




MEMORANDUM FOR RAYMOND J . BEAUDET
               ASSISTANT INSPECTOR GENERAL FOR AUDIT
               OFFICE OF THE INSPECTOR GENERAL




FROM,                      ~~~a~-p..lp~i~~--'''''
                            Fe~!~~~reau
                                                   r"e-ctor
                                                  risons

SUBJECT,                    Response to the Office of Inspector General's (OIG)
                            Draft Audit Report:     The Federal Bureau of Prison's
                            Furlough Program

The Bureau of Prisons (BOP) appreciates the opportunity to comment
on and respond to the recommendations from the OIG's draft audit
report entitled Audit of the Federal Bureau of Prisons' Furlough
Program.

Please find below listed the BOP's response to each individual
recommendation:




                                           - 33 -
Recommendation #1: Review and track in SENTRY furlough and escape activity data on a
routine basis, including data the BOP receives on criminal acts committed by inmates on
furlough. These reviews should include identifying anomalous information, identifying any
trends in furloughs and escapes, and rectifying systemic data entry weaknesses.

Initial Response: The BOP concurs. Under current controls, social furloughs are reviewed on a
yearly basis via Operational and Program Reviews and trends are identified with regard to
meeting furlough criteria; however, the Program Review Guidelines will be strengthened to
include a review of the correct release code and inmate custody requirements. Central Office
Correctional Programs staff will conduct quarterly reviews on escapes from institution-to-
institution, and institution to Residential Reentry Center (RRC) moves. These reviews will
include identifying anomalous information, trends, reported criminal convictions, and rectifying
systemic data entry weaknesses. This will be completed by August 1, 2011.

Recommendation #2: Explore technological solutions to rectify the data issues we identified,
such as missing escape notifications, transfer furloughs appearing to be inconsistent with BOP
policy for institution-to-institution moves of inmates with “in” custody, and erroneous coding of
transfer furloughs.

Initial Response: The BOP concurs. Technological solutions are being explored to deploy an
electronic inmate central file, which will eliminate missing escape notifications, as well as all
other forms required to be placed in the central file. The agency is committed to an electronic
central file. We request this portion of the recommendation be closed.

SENTRY will be reprogrammed to alert staff (with error messages) to prevent transfer furloughs
appearing to be inconsistent with BOP policy for institution-to-institution moves of inmates with
“in” custody and erroneous coding of furlough transfers. This will be completed by
December 31, 2010.

Recommendation #3: Assess its employee training programs for SENTRY data entry and
provide refresher training for its employees, as needed.

Initial Response: The BOP concurs. Refresher training will be provided to the affected
employees and will include SENTRY data entry training. This will be completed by August 31,
2011.

Recommendation #4: Develop a more effective mechanism for coordinating with the union on
required policy changes, including procedures for critical and routine matters.

Initial Response: The BOP concurs. In accordance with 5 USC and applicable laws, rules, and
regulations, when the employer issues a new policy, procedures, or practices affecting conditions
of employment, it is understood the entire policy, procedure or practice is open for negation.
The collective bargaining agreement (Master Agreement), between the Union and the BOP,
provides the ground rules (negotiated by the parties in 2000) that must be followed when
negotiating policy. We will continue to work with Union officials to develop a more effective




                                              - 34 -
negotiation process; however, these rules cannot be changed until a new Master Agreement is
negotiated with the Union. This will be completed by December 31, 2017.

Recommendation #5: Secure the implementation of the revised furlough policy, which has
been awaiting negotiation since 2003.

Initial Response: The BOP concurs. The collective bargaining agreement (Master Agreement),
between the Union and the BOP, provides the procedure for notification to the Union. The
ground rules (negotiated by the parties in 2000) provide the rules that must be followed when
negotiating policy. Collectively, these rules provide the procedures by which the BOP negotiates
policy with the Union. The procedures provide that the parties negotiate policy one session per
month (each session is three days). This process cannot be changed until a new Master
Agreement is negotiated or the Union agrees to open up the ground rules for negotiations.
Ordinarily, policies are negotiated in the order in which they are received by Labor and
Management Relations. We will make every effort to negotiate the furlough policy with the
Union to implement required changes. This will be completed by December 31, 2017.

Recommendation #6: Continue to explore alternative methods for sharing and storing
documentation related to furloughs, such as the development of an electronic inmate case file
system.

Initial Response: The BOP concurs. As stated in the initial response to recommendation #2,
technological solutions are being explored to deploy an electronic inmate central file. The
agency is committed to an electronic central file. We request this recommendation be closed.

Recommendation #7: Consider the required use of document checklists to ensure that inmate
case files contain all required documentation.

Initial Response: The BOP has considered the required use of document checklists. Program
Statement 5800.11, Inmate Central File, Privacy Folder, and Parole Mini-Files, lists the required
material to be organized in the central file. This established list can be used as a reference guide
for ensuring all required documents are maintained in the central file. However, as an
enhancement, labeled document depositories will be created for the electronic central file. We
recommend this recommendation be closed.

       If you have any questions regarding this response, please contact VaNessa P. Adams,
Assistant Director, Program Review Division, at (202) 616-2099.




                                              - 35 -
                                                               APPENDIX III

     OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
           SUMMARY OF ACTIONS NECESSARY TO
                    CLOSE THE REPORT

       The OIG provided the BOP a draft of this audit report for review and
comment. The BOP stated that it agreed with the seven recommendations
we made to the BOP. The comments that we received from the BOP, which
detail the actions taken or plans for implementing our recommendations,
have been incorporated in Appendix II. Our analysis of this response and a
summary of the actions necessary to resolve or close each recommendation
are presented below.

Recommendation Number:

1.    Resolved. The BOP concurred with our recommendation to review
      furlough and escape activity data on a routine basis to identify
      anomalous information, identify any trends in furloughs and escapes,
      and rectify systemic data entry weaknesses. The BOP stated that it
      currently reviews social (non-transfer) furloughs on a yearly basis
      through its Operational and Program Reviews and trends are identified
      with regard to meeting furlough criteria. The BOP indicated that it will
      strengthen its Program Review Guidelines to include a review of
      inmate custody requirements and release code correctness. Further,
      the BOP reported that its Central Office Correctional Programs staff will
      conduct quarterly reviews on escapes occurring during institution-to-
      institution and institution-to-Residential Reentry Center (RRC) moves.
      These reviews will include identifying anomalous information, trends,
      reported criminal convictions, and rectifying systemic data entry
      weaknesses. The BOP reported that it intends to complete these
      actions by August 1, 2011.

      However, although the BOP reported that it will strengthen its review
      of non-transfer furloughs through its Operational and Program
      Reviews, the BOP did not indicate that it will conduct similar reviews of
      transfer furlough data. Further, according to the BOP’s Management
      Control and Program Review Manual, institutions receiving a “superior”
      or “good” rating are reviewed every 3 years, institutions receiving an
      “acceptable” rating are reviewed every 2 years, and institutions
      receiving deficient ratings are reviewed every 18 months. In addition,
      the BOP’s Operational and Program Review guidelines require that just
      five furloughs be reviewed during an institution’s review process. We
      believe that the review of such a small sample on an infrequent basis
      is not sufficient to identify and correct the errors we describe in our


                                    - 36 -
     report. Many of the errors we identified were easily detected by a
     general, overall review of all of BOP furlough data. For example, we
     quantified the number of transfers to a halfway house by time
     remaining on the inmate’s sentence, and this data indicated that 339
     inmates with more than 5 years remaining were granted furloughs to
     transfer to a halfway house. We believe that more frequent review of
     basic management reports and statistics will help BOP officials to
     oversee and manage the furlough program.

     This recommendation can be closed when we receive evidence that the
     BOP has: (1) strengthened its Operational and Program Review
     guidelines to include a review of release codes and inmate custody
     requirements for both non-transfer and transfer furloughs;
     (2) implemented quarterly reviews on escapes from institution-to-
     institution and institution-to-Residential Reentry Center (RRC) moves;
     and (3) developed basic reports and statistics on both furloughs and
     escapes and these reports are used on a routine basis to identify and
     correct errors, identify anomalous information, identify any trends in
     furloughs and escapes, and rectify systemic data entry weaknesses.

2.   Resolved. The BOP concurred with our recommendation to explore
     technological solutions to rectify the data issues we identified, such as
     missing escape notifications, transfer furloughs appearing to be
     inconsistent with BOP policy for institution-to-institution moves of
     inmates with “in” custody, and erroneous coding of transfer furloughs.
     The BOP stated that it is exploring technological solutions, including
     the deployment of an electronic inmate central file, which it believes
     will eliminate missing escape notifications and other missing forms.

     This recommendation can be closed when we receive evidence that the
     BOP’s electronic central file system has been implemented and that it
     has rectified the data issues we identified, including missing escape
     notifications, transfer furloughs appearing to be inconsistent with BOP
     policy for institution-to-institution moves of inmates with “in” custody,
     and erroneous coding of transfer furloughs. In the interim, we
     recommend that the BOP address its data issues by developing and
     reviewing the management reports and statistics discussed in
     Recommendation Number 1.

3.   Resolved. The BOP concurred with our recommendation to assess its
     employee training programs for SENTRY data entry and provide
     refresher training for its employees as needed. The BOP stated that
     refresher training will be provided to the affected employees and will



                                   - 37 -
     include SENTRY data entry training. The BOP anticipates that this will
     be completed by August 31, 2011.
     This recommendation can be closed when we receive evidence, such
     as attendance sign-in sheets and course materials, supporting that
     SENTRY data entry training took place and that appropriate individuals
     attended.

4.   Unresolved. The BOP concurred with our recommendation that it
     develop a more effective mechanism for coordinating with the union on
     required policy changes, including procedures for critical and routine
     matters. The BOP stated that, in accordance with 5 U.S.C. and
     applicable laws, rules, and regulations, when the employer issues a
     new policy, procedures, or practices affecting conditions of
     employment, it is understood the entire policy, procedure, or practice
     is open for negotiation. Further, according to the BOP’s response, the
     collective bargaining agreement (Master Agreement) between the
     union and the BOP provides the ground rules, which were negotiated
     by the parties in 2000, and which must be followed when negotiating
     policy.

     The BOP also stated that it will continue to work with union officials to
     develop a more effective negotiation process. However, the BOP
     asserts that the rules cannot be changed until a new Master
     Agreement is negotiated with the union. The BOP stated that a new
     Master Agreement will be completed by December 31, 2017.

     As noted in our report, the Master Agreement expired 9 years ago, in
     2001. Yet, according to the BOP, it will take an additional 7 years to
     fully negotiate the new Master Agreement. We believe that this
     timeframe is excessive and the lengthy delay undermines the BOP’s
     ability to implement necessary changes in BOP practices, some of
     which can affect the safety and security of BOP institutions or affect
     victims’ rights. We believe that the BOP should be able to implement
     appropriate management changes in a relatively timely basis.

     Thus, as stated in our report, we believe it is essential that the BOP
     have the capability to quickly develop, update, and implement policies
     affecting its ability to fulfill its mission. We believe that taking
     16 years to negotiate a new Master Agreement, which is central to the
     BOP’s ability to conduct its operations, is unacceptable and does not
     adequately address the intent of this recommendation.

     This recommendation can be resolved when we receive evidence that
     the BOP has developed a plan for a more effective and timely


                                    - 38 -
     mechanism to assure that it can implement appropriate policy
     changes.

5.   Unresolved. The BOP concurred with our recommendation to
     implement its revised furlough policy, which was drafted in 2003 but
     which has been awaiting negotiation and implementation since then.
     In its response, the BOP stated that the collective bargaining
     agreement (Master Agreement) between the union and the BOP was
     negotiated in 2000 and provides the procedure for notification to the
     union, as well as the procedures that must be followed when
     negotiating policy. These procedures provide that the parties
     negotiate policy one session per month with each session lasting
     3 days. The BOP stated that this process cannot be changed until a
     new Master Agreement is negotiated or the union agrees to open up
     the ground rules for negotiations. Further, the BOP stated that policies
     are ordinarily negotiated in the order in which they are received. The
     BOP stated that it will make every effort to negotiate the furlough
     policy with the union to implement required changes. However, the
     BOP stated that these negotiations will be completed
     by December 31, 2017.

     We believe that the BOP’s timeframe for implementation of this
     recommendation is excessive and unacceptable. In essence, the BOP’s
     response is stating that it will be able to implement necessary changes
     to its furlough policy 14 years after the BOP drafted a revised policy.
     The policy has been awaiting negotiation for 7 years, and the BOP’s
     response suggests that it will take another 7 years – until 2017 – to
     negotiate and implement the revised policy. We do not believe the
     BOP’s response is acceptable or sufficient to address our
     recommendation.

     Moreover, the wait for the revised policy to be implemented has
     significant consequences. For example, the revised policy would
     require the victims of a crime to be notified when a defendant is
     approved for a medical furlough. This notification is not occurring
     now, and this deficiency would be corrected under the revised policy.
     Yet, as a result of the excessive delay in implementing the revised
     policy, this change that would enhance victims’ rights has not been
     implemented for 7 years and may not be implemented for another
     7 years. Other weaknesses in the BOP’s furlough policy, such as the
     furlough eligibility of inmates found guilty of certain drug crimes and
     the need to conduct post-furlough interviews no later than the next
     business day of return, similarly may not be implemented for another
     7 years.


                                   - 39 -
     Thus, we do not believe the BOP’s response adequately addresses our
     recommendation when the BOP states that it will take another 7 years
     to implement important improvements to its furlough policy.

     This recommendation can be resolved when we receive evidence that
     the BOP has developed plans to implement a revised furlough policy in
     a more timely manner.

6.   Resolved. The BOP concurred with our recommendation that it
     continue to explore alternative methods for sharing and storing
     documentation related to furloughs. The BOP stated that it is
     exploring technological solutions related to this issue, including the
     deployment of an electronic inmate central file.

     This recommendation can be closed when we receive evidence that the
     BOP’s provides evidence that its electronic central file system has been
     implemented and that it provides a method for sharing and storing
     documentation related to furloughs.

7.   Resolved. The BOP stated that it considered our recommendation
     that it require the use of document checklists to ensure that inmate
     case files contain all required documentation. However, the BOP
     indicated that it believes its policies provide a listing of the documents
     that are required to be maintained in an inmate’s central file. This
     listing can be used as a reference for its employees to ensure that all
     required documents are maintained in the central file. Further, the
     BOP reported that it will be enhancing its procedures by incorporating
     labeled document depositories in its electronic central file.

     This recommendation can be closed when we receive documentation
     indicating that the BOP provides evidence that it has implemented a
     new electronic central file and that the system contains labeled
     document depositories.




                                    - 40 -
